          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           FY 2012 Office of Inspector
           General FISMA Audit of GSA’s
           Information Technology
           Security Program
           Report Number A120125/O/F/F12005
           September 28, 2012




A120125/O/F/F12005
                     Office of Audits
                     Office of Inspector General
                     U.S. General Services Administration


                                      REPORT ABSTRACT
                              FY 2012 Office of Inspector General FISMA Audit of GSA’s
OBJECTIVE                     Information Technology Security Program
The objective of this audit   Report Number A120125/O/F/F12005
was to determine if GSA       September 28, 2012
developed, documented,
                              WHAT WE FOUND
and implemented a
                              We identified the following during our audit:
comprehensive agency-
wide information security     Finding 1 – Systems faced increased threats because security
program that addresses        patching for high-risk vulnerabilities were not performed timely.
risks in the current          Finding 2 – For newly deployed systems, PBS lacks procedures to
information technology        ensure that system officials will be able to recover data and restore the
                              system in the event of a contingency.
environment. If not, what
additional actions are        Finding 3 – The Office of the Chief Information Officer (OCIO) lacks
needed to strengthen          comprehensive guidance for the secure development of mobile
                              applications to mitigate mobile threats.
GSA’s Information
Technology Security           WHAT WE RECOMMEND
Program and protect the       Based on our audit findings we recommend the GSA Chief Information
confidentiality, integrity,   Officer (CIO):
and availability of GSA’s     1. Conduct additional oversight of patch management
systems and data?                implementations to ensure that system officials are addressing
                                 vulnerabilities on GSA systems in a timely manner.
                              2. Work with PBS to ensure that PBS develops and implements a
                                 process for testing the restoration of system backups before new
                                 systems are deployed.
                              3. Create guidance to assist GSA system officials in securely
                                 developing applications for mobile platforms.

Finance & Information         MANAGEMENT COMMENTS
Technology Audit Office
1275 First Street, NE,        Management agreed with our findings and recommendations. The
Room 227                      GSA CIO’s complete response is presented in Appendix B.
Washington DC 20002
202-357-3620




      A120125/O/F/F12005                        i
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            September 28, 2012
 TO:              Casey Coleman
                  Chief Information Officer (I)

 FROM:            William Salamon
                  Audit Manager, (JA-F)
 SUBJECT:         FY 2012 Office of Inspector General FISMA Audit of GSA’s
                  Information Technology Security Program
                  A120125/O/F/F12005

This report presents the results of our FY 2012 Office of Inspector General FISMA Audit
of GSA’s Information Technology Security Program. Our findings and recommendations
are summarized in the Report Abstract. Instructions regarding the audit resolution
process can be found in the email that transmitted this report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or the Auditor-in-
Charge at the following:

 William Salamon      Audit Manager     william.salamon@gsaig.gov (202) 357-3634
 Terry Williams       Auditor-in-Charge terry.williams@gsaig.gov  (202) 357-3641

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A120125/O/F/F12005                       ii
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1 – Systems faced increased threats because security patching for high-risk
            vulnerabilities were not performed timely ................................................ 2
Finding 2 – For newly deployed systems, PBS lacks procedures to ensure that
            system officials will be able to recover data and restore the system in the
            event of a contingency ............................................................................ 2
Finding 3 – The OCIO lacks comprehensive guidance for the secure development of
            mobile applications to mitigate mobile threats ......................................... 3
Recommendations ..................................................................................................... 3
Management Comments ............................................................................................ 4


Conclusion ................................................................................................................ 5

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Management Comments .............................................................. B-1
Appendix C – Report Distribution ....................................................................... C-1




A120125/O/F/F12005                                        iii
Introduction
The General Services Administration’s (GSA) Information Technology (IT) Security
Program provides guidance and oversight to protect GSA systems and data. The
Federal Information Security Management Act of 2002 (FISMA) directs Inspectors
General to perform an annual independent evaluation of their respective agency’s
information technology security program and controls for select systems. This audit
report presents the results of the Office of Inspector General’s fiscal year 2012 audit of
GSA’s IT Security Program and reflects results from evaluations of four selected
systems conducted during the year by our office.

According to FISMA, the Office of Management and Budget is responsible for
summarizing the results of agency evaluations in a report to Congress. For fiscal year
2012 reporting, Inspectors General are required to assess agency information security
performance in key areas, including risk management, configuration management,
remote access management, incident response and reporting, and identity and access
management.

The objective of this audit was to determine if GSA developed, documented, and
implemented a comprehensive agency-wide information security program that
addresses risks in the current IT environment. If not, what additional actions are needed
to strengthen GSA’s IT Security Program and protect the confidentiality, integrity, and
availability of GSA’s systems and data?

See Appendix A – Purpose, Scope, and Methodology for additional details.




A120125/O/F/F12005                      1
Results
Finding 1 – Systems faced increased threats because security patching for high-
risk vulnerabilities were not performed timely.

During the course of our audits, three of the systems we reviewed did not implement
system security patches to address vulnerabilities consistent with GSA requirements.
The identification and remediation of known security threats via security patches
attempts to prevent vulnerabilities from being exploited and compromised. Oftentimes,
vendors are proactive in developing and releasing fixes to known vulnerabilities to the
public. To prevent exploitation, GSA system officials must ensure that they capture all
relevant fixes as they are released, test their implementation for adverse effects, and
implement them, if deemed appropriate, after testing is concluded. GSA requires all
high-risk vulnerabilities to be mitigated within 30 days. For two systems, timely patching
was not completed because the organizations managing them have developed and
implemented patch management processes that exceeded GSA requirements, allowing
system officials 60 days or more to resolve vulnerabilities. The third system had not
completed adequate vulnerability scanning, resulting in multiple database patching-
related vulnerabilities dating back to 2009.

Finding 2 – For newly deployed systems, PBS lacks procedures to ensure that
system officials will be able to recover data and restore the system in the event of
a contingency.

PBS does not have assurance that newly deployed systems are recoverable from
backup media. According to the National Institute of Standards and Technologies
(NIST) Special Publication (SP) 800-53, system officials must test backup information to
verify media reliability and information integrity. 1 However, PBS does not ensure that
each system is tested in the environment before they are deployed. Instead, PBS
identifies common platforms (operating systems and corresponding databases)
throughout the organization and annually tests one system for each standardized
platform as a representative sample. Residual risk remains to newly deployed systems,
since PBS lacks procedures to ensure that backups are properly written to disks or that
other recovery methods are working prior to deployment.

Backups are performed primarily for recovery purposes and therefore serve one of the
key elements of contingency planning. Without adequate testing, PBS has to rely on
backup methods that have not been tested to verify the reliability and integrity of the
information to be restored for newly deployed systems. If these backup methods fail,
administrators would be unable to perform system restoration.



1
 NIST SP 800-53, Recommended Security Controls for Federal Information Systems, Rev. 3, August
2009




A120125/O/F/F12005                          2
Finding 3 – The OCIO lacks comprehensive guidance for the secure development
of mobile applications to mitigate mobile threats.

GSA has developed five custom mobile applications that it makes available to the
public. However, the GSA Office of the Chief Information Officer (OCIO) does not have
a specific policy or other guidance for the secure development of custom mobile
applications. Specifically, the GSA OCIO does not outline the required controls and
assessments that system security officials should perform to ensure that mobile
applications (for both public and internal use) are secure before being put into
operation. Instead of developing and enforcing pre-defined security requirements, GSA
OCIO officials stated that they expect to be notified by system officials of development
of mobile applications during the security assessment and authorization process. GSA’s
approach is reactive and relies upon (1) Apple’s iOS and Google’s Android platform
application evaluation procedures and (2) scanning of GSA mobile devices to identify
any new mobile applications (whether developed by GSA or external parties).

According to the NIST SP 800-53, the organization must manage the information
system using a system development life cycle methodology that includes information
security considerations. Mobile platform risks differ from those associated with
traditional computing. These include poor session handling, reduced authorization and
authentication requirements, and increased potential for data leakage due to loss or
theft of devices. To prevent exploitation, security officials need to understand the
additional risks mobile applications introduce into the existing architecture. Without
proper guidance, the development and deployment of GSA mobile applications can
occur within GSA without adequate consideration for aspects of security that are not
part of the platform vendor’s mobile application evaluations. This could result in
degradation of confidentiality, availability, or integrity for entities interacting with the
application, including: GSA systems, GSA users, or the public.

Recommendations

Based on our audit findings we recommend the GSA Chief Information Officer:

   1. Conduct additional oversight of patch management implementations to ensure
      that system officials are addressing vulnerabilities on GSA systems in a timely
      manner.

   2. Work with PBS to ensure that PBS develops and implements a process for
      testing the restoration of system backups before new systems are deployed.

   3. Create guidance to assist GSA system officials in securely developing
      applications for mobile platforms.




A120125/O/F/F12005                       3
Management Comments

Management agreed with our findings and recommendations. The GSA CIO’s complete
response is presented in Appendix B.




A120125/O/F/F12005                 4
Conclusion
We found that additional steps are needed to strengthen GSA’s IT Security Program in
three key areas: (1) timely patching, (2) contingency plan testing for newly deployed
systems within PBS, and (3) policies for mobile application development.

Additional oversight of patching processes for GSA systems could reduce threats from
known security vulnerabilities. We also found that PBS needs to ensure that newly
deployed systems are recoverable from backup media. Finally, additional guidance is
needed to direct agency development of secure mobile applications. We believe that
making the security improvements recommended in this report will better enable GSA’s
OCIO to ensure the confidentiality, availability, and integrity of the agency’s systems
and data.




A120125/O/F/F12005                     5
Appendix A – Purpose, Scope, and Methodology
Purpose

The Federal Information Security Management Act of 2002 (FISMA) requires an annual
independent evaluation of the General Services Administration’s (GSA) Information
Technology (IT) Security Program. To meet the FISMA requirements, the Office of
Inspector General conducted an audit encompassing assessments of the security
program and controls for select systems.

Scope

The audit’s scope included assessments of controls for GSA’s IT Security Program and
reflects results from evaluations of four selected systems conducted throughout the
fiscal year by our office. In addition, the scope includes evaluations of the Office of the
Chief Information Officer’s oversight of the implementation of IT security controls for
GSA systems and data.

Methodology

To accomplish our objectives, we:

   •    Met with GSA IT security officials in the Office of the GSA Chief Information
        Officer, Federal Acquisition Service, and Public Buildings Service.
   •    Applied the NIST Federal Information Processing Standards Publications and SP
        800-series security guidelines.
   •    Reviewed applicable information security regulations, policies, and guidance.
   •    Assessed the results of the completed system security reviews for three systems.
   •    Performed an assessment of select CyberScope questions for a fourth system by
        examining the system assessment and authorization package, including the
        system risk assessment, security plan, security assessment results, contingency
        plan, and plan of action and milestones. To determine implementation of certain
        CyberScope controls for the system, we chose a random sample of minor
        applications.

We conducted the audit between April 2012 and August 2012 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




A120125/O/F/F12005                      A-1
Internal Controls

This audit included a review of elements of GSA’s IT Security Program, including select
management, operational, and technical controls for four GSA systems and the OCIO’s
oversight of the implementation of IT security controls for GSA systems and data. We
did not test all controls across GSA. The Results and Recommendations sections of this
report state, in detail, the need to strengthen specific processes and controls
established within the GSA IT Security Program.




A120125/O/F/F12005                    A-2
Appendix B – Management Comments




A120125/O/F/F12005    B-1
Appendix C – Report Distribution
GSA Chief Information Officer (I)
Senior Agency Information Security Officer (IS)
Commissioner, Public Buildings Service (P)
Division Director, GAO/IG Audit Response Division (H1C)
Audit Liaison, Office of the Chief Information Officer (I)
Audit Liaison, Public Buildings Service (P)
Assistant IG for Auditing (JA)
Deputy Assistant IG for Investigations (JID)
Director, Audit Planning, Policy, and Operations Staff (JAO)




A120125/O/F/F12005                       C-1
